                                   .-   .. ,. .,. :,. ,. .Z. r m 2 : ? :        .:-. - .                                    .,--
                                                                                                                                   . . . .:....,.....;&,--A
                                                                                                                                                 .                 . -,.. ,.. . ..
                                               .-
                                             .......                       ...... ....-. .....                                     . ... .........--.en..
                                                                                                                                                     .-!.. .-*=-=:.
                                                                                                                                                                                  -.
                                                                                                                                                       . . . .----.:---....-.....:.. . . .
                                                 :;Y;~~.?:?:::-
                                        ~
                                                                                            .
                                                                                                                                                      . ...--==-
                                    ,
                                            ....
                                             ...,..I.                                 -:
                                                                                       .:                                            ......
                                                                                                                                       .....".... . .*.                               . - - . . . .
                                                                                                                                                              -         .
                                                                                                                                                            - 5 - 7        '-



I                                  r                      ...........                            .                                                              ......

                                                                                                       NATIONAL SCIENCE FOUNDATION
                                                                                                        OFFICE OF INSPECTOR GENERAL
                                                                                                         OFFICE OF INVESTIGATIONS

                                                                                                     CLOSEOUT MEMORANDUM

         Case Number: A06060027



                             Our inquiry substantiated an allegation regarding two proposals1submitted to NSF by the
                   PI^ that contained plagiarized text.
                                                      The institution3 concluded that the PI plagiarized materials
                  fiom another federal agency proposal she received for review. It detamined that the PI'S actions
                  breached that agency's expectations of confidentiality in the review process. Further, it
                  determined the PI deliberatelytook actions to conceal what she had done by inventing a story for
                  the source of the plagiarized materials and electronically back dating emails and files to support
                  the story. The Institution concluded the subject's actions were research misconduct. We
                  concurzed with the University and recommended NSF make a finding of research misconduct.

                          This memo, the attached Report of Investigation, and the Deputy Director's decision
                  letter constitute the case closeout. Accordingly, this case is closed .




     I




                    Dr. Valeria G. Stoleru.



    I'
         NSF OIG Fonn 2 (1 1/02)
As part of our inquiry, we determined that an unfunded NSF proposal (Proposal 1)' submitted by
the subject appeared to contain over 250 lines of text, four figures, one table, and 18 embedded
citations apparently copied frorn four source documents (A through D). Source document A was
an earlier declined NSF proposal submitted by other scientists? NSF databases indicated that
the subject did not review source document A for NSF.

We wrote to the subject to request her explanation regarding the apparently copied materials in
Proposal 1 (Tabs A, B, and C).

The subject's fust response (Tab D) stated that

         [wlhile I understand the allegations, I would like to assure you that the alleged
         plagiarism occurred without my intent or knowledge [Tab D, page 11.

Regarding source document A, the subject explained the extensive copying of material into
Proposal 1 was material she had taken from a draft document she received fiom a company's3
collaborators, whom she did not identify. She explained that

         [i]t never occurred to me to ask my collaborators whether the draft was their
         original contribution and thus, I was very upset to see the resemblance of the file
         with the source document A mentioned by your letter. Due to the confidential
         nature of your inquiry, I have not attempted to confiont my collaborators at [the
         company] regarding this matter. p a b D, page 21

The subject explained that she received the draft document via email. However she had deleted
the original email and attachment and thus could not provide it to us. She explained that she
deleted it because of her Institution's4 restrictions on keeping old emails.' The subject provided
redacted copies of email exchanges in which she requested that the collaborator send her another
copy of the draft document. The collaborator provided her with another copy of the draft
document which she subsequently provided to our office (Tab D, Appendix A-3).




                                               (not funded), entitled
                                                   by the subject, Dr. Valeria G. Stoleru, an assistant professor at the
  Institution.
                                                                                                           was submitted



 Thii statement is correct. As the result of an earlier (unrelated) interaction with the Institution, we learned that it
  expected its faculty to delete all old emails.
                                  NATIONALSCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD'
                                     ARLINGTON,VIRGINIA 22230




     OFFEE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REOUESTED




I
Dr. Valeria Stoleru




       Re: Notice of Proposed Debamre~ttand Nofice ofResearclr Miscondrrci Defer~tzinilfio~~


Dear Dr. Stoleru:

In 2006, the University submitted two proposals to the National Science Foundation ('WSF" or




documented in the attached investigative report prepared by NSF's Office of Inspector General
("'OIG"), these proposals contained plagiarized material.

Ln light of your misconduct, this letter serves as hrrnal notice tbaf NSF is proposing to debar you
from directly or indirectly obtaining the benefits of Federal grants until July 31,201 4. During
your period of debarment, you will be precluded fiom receiving Federal financial and non-financial
assistance and bene6ts undqnon-procurement Federal programs and activities. In addition, you      '

will be prohibited b i n receiving any Federal contracts or approved subcontracts under the
Federal Acquisition Regulations ("FAR"). Lastly, during your debarment period, you will be
barred h m having supervisory responsibility, primary management, substantive control over, or
critical iduence on, a grant, contract, or cooperative agreement with any agency of the Executive
Branch of the Federal Government.

In addition to proposing your debarment, I am profuiiting you &om serving as an NSF reviewer,
advisor, or consultant to NSF until July 31,2014. Furthermore, for three years fiom the
expiration of your debarment period, I am requjring that you submit certifications, and that a
responsible official of your employer submit assurances, that any proposals or reports you submit
to NSF do not contain plagiarized, falsified, or fabricated material Lastly, you must complete an
ethics training course on plagiarism by July 31,201 0, and certifL in writing to the OIG that you
have done so.
